No.

IN THE
Supreme Court of the United States

 

ERIC J. PEREZ,

Petitioner,
v.

UNITED STATES OF AMERICA,

Respondent.

 

Motion for Leave to Proceed in Forma Pauperis

 

Petitioner Eric J. Perez moves for leave to file his petition for a writ of certiorari without
prepayment of fees or cosis and to proceed in forma pauperis. Petitioner was represented before
the district court and the Ninth Circuit Court of Appeals by counsel appointed pursuant to 18

U.S.C. ยง 3006A. Counsel for Petitioner is admitted to practice before this Court.

Respectfully submitted this 12th day of May, 2020.

ard D. Wall

JA Appointed Counsel for Petitioner
1604 W. Dean

Spokane, WA 99201

(509) 747-5646

    
  
